<html>
<title> - ASSESSING PRESIDENT OBAMA'S MIDDLE EAST AND NORTH AFRICA FY 2017 BUDGET REQUEST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


             ASSESSING PRESIDENT OBAMA'S MIDDLE EAST 
                AND NORTH AFRICA FY 2017 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              APRIL 13, 2016

                               __________

                           Serial No. 114-164

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
                                WASHINGTON : 2016
                                 
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  
                                
                                
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne W. Patterson, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................     9
The Honorable Paige Alexander, Assistant Administrator, Bureau 
  for the Middle East, U.S. Agency for International Development.    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne W. Patterson: Prepared statement..............    12
The Honorable Paige Alexander: Prepared statement................    22

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    48
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Questions submitted for the 
  record and written responses from:
  The Honorable Anne W. Patterson................................    50
  The Honorable Paige Alexander..................................    54

 
                   ASSESSING PRESIDENT OBAMA'S MIDDLE EAST
                   AND NORTH AFRICA FY 2017 BUDGET REQUEST

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses.
    Without objection, ladies, your prepared statements will be 
made a part of the record and members may have 5 days to insert 
statements and questions for the record, subject to the length 
limitation in the rules.
    The chair now recognizes herself for 5 minutes.
    We are here today to discuss the President's FY17 budget 
request for the Middle East and North Africa Region. I fully 
support the request to honor the terms of the Memorandum of 
Understanding, MOU, with our closest ally, the Democratic 
Jewish State of Israel and helping to ensure that she has what 
she needs to defend herself and her citizens.
    In the aftermath of the weak and dangerous Iran nuclear 
deal and the corresponding race to arms by many of the nations 
in the region that feel threatened by a newly-empowered Iran, 
Israel is facing a new dangerous environment, so it is critical 
that we ensure that Israel's qualitative military edge is 
intact and vigorously enforced, as our policy stipulates and as 
our laws state. So, I strongly urge the administration to 
conclude the negotiations on a new robust MOU with Israel in an 
expeditious manner and in a way that reflects the new reality 
that the Jewish State faces in the region.
    I am also pleased that the administration is following 
through with the additional support for Jordan, as agreed upon 
in last year's MOU, with $1 billion to help the Kingdom cope 
with the strain on its resources from the Syrian humanitarian 
crisis and the influx of refugees, as well as help provide 
Jordan with the tools that it needs to continue to fight on the 
frontlines against ISIS.
    However, this request for Jordan highlights one of the most 
noteworthy trends of the current request, which is the 
administration's continued shift to move a significant amount 
of assistance from the regular Foreign Affairs budget to the 
Overseas Contingency Operations, OCO accounts. Nearly half of 
this year's budget request is OCO funds, $3.5 billion of the 
$7.1 billion for the Middle East and North Africa in non-
humanitarian bilateral aid. That is over 100 percent more than 
last year's request, with almost all of the $1 billion for 
Jordan coming in OCO. This is a troubling trend that the 
administration needs to explain in greater detail, as we are 
seeing funds that should be in the base budget that are being 
shifted into the OCO fund.
    Tunisia is strategically important and this is where the 
democratic transition has been referred to by the 
administration as a model for other states in the Arab world. 
However, when compared to Egypt, Jordan, or even Lebanon, our 
aid package to Tunisia does not really indicate that the 
administration views its future as a high priority. The people 
and Government of Tunisia needs us now more than ever.
    While this year's request may represent an increase, 
foreign military financing assistance for Tunisia's security 
accounts for $45 million, while slightly more than that is 
being provided for democracy and governance and economic 
assistance. Tunisia is facing some trying times at the moment, 
and we want to support it and ensure that it remains on the 
transition toward democracy. Yet, the administration does not 
appear to be making a successful transition a priority in this 
request.
    While Lebanon may be facing significant problems as a 
result of the Syrian conflict, it has been mired in a political 
crisis for nearly 2 years and has no elected leader, and 
concerns remain over Hezbollah and Iran's increasing influence 
in Lebanon. This raises questions over how our assistance to 
Lebanon is being used to advance our interests. The same can be 
said over continued assistance requests for Libya or Yemen, two 
other countries in dire political straits.
    When it comes to strategic interest, in the region, Egypt 
remains near the top. Egypt's security and stability are key 
U.S. national security interests, which is why we continue to 
provide Cairo with the foreign military financing assistance it 
needs and we will continue to work with Egypt to tackle the 
terrorist threat, in the Sinai.
    Yet, in Egypt we are facing a significant pipeline issue 
where between $500 million to $700 million in previous years 
funds have not been spent nor obligated. Yet, the 
administration continues to request $150 million in ESF for 
Egypt without presenting a concrete plan on how it will spend 
these unobligated funds and without having the flexibility to 
operate in Egypt that we once had.
    When we discuss using our assistance as effectively and 
efficiently as possible, we have to talk about our response to 
the Syrian humanitarian crisis. The United States has been the 
single largest donor in response to the Syrian humanitarian 
crisis by providing over $5 billion and we'll continue to do 
what we can, but our policies to get at the root cause of the 
problem have failed and Assad still remains in power. While 
most of this assistance is being funneled through the U.N., it 
raises questions about whether or not we are maximizing our 
assistance in this humanitarian response.
    But when talking about using our assistance effectively in 
furtherance of our interests, perhaps the most egregious 
failure of this budget request is the continued request by the 
administration for hundreds of millions in assistance for the 
West Bank and Gaza. The Palestinian Authority and Abu Mazen 
have continued to incite violence against Israel, have 
continued to support terrorism, have continued to fund the 
salaries of terrorists in Israeli prisons as well as their 
family members. And the Palestinians continue to seek to de-
legitimize the Jewish State at the United Nations and are 
moving forward with plans to undermine the peace process by 
seeking unilateral statehood. The administration may argue that 
it has sought less for the Palestinian Authority in this year's 
budget request, but we should have cut off all assistance to 
the PA for violating several provisions of U.S. law.
    So, I welcome our distinguished guests. I look forward to 
hearing from the administration about the justifications for 
its budget request and how these line up with the 
administration's objectives for the coming year in the Middle 
East and North Africa.
    With that, I am so pleased to yield to the ranking member, 
my good friend, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. I hope you feel 
better.
    And thank you, Assistant Administrator Alexander and 
Assistant Secretary Patterson, for being here today. It is a 
pleasure to welcome you back to the subcommittee. We look 
forward to a positive discussion about the region.
    I want to take a moment, again, to thank the hard-working 
USAID and State Department employees and Foreign Service 
Officers who work in dangerous and difficult places to help 
those in need and promote American values around the world. 
Their work too often goes unnoticed and underappreciated, and I 
just wanted to take a moment today to highlight what they do 
and to thank them for it.
    It is no doubt that some of our greatest foreign policy 
challenges are in the Middle East and North Africa. New threats 
have emerged that endanger the security of the United States, 
our regional interests, and our regional partners. This year's 
State Department budget request for the region is $7.3 billion, 
a 9-percent increase from what we spent in 2015. Of the $6.1 
billion requested in global humanitarian aid, $2 billion is to 
address the humanitarian crisis in Syria.
    For over 5 years, the region has been struggling to deal 
with the effects of the war in Syria. The devastating 
humanitarian crisis will certainly have implications not just 
this coming year, but for years to come and for decades to 
come.
    I have repeatedly expressed my deep frustration over the 
international response to the humanitarian crisis in Syria, but 
I would like to applaud the administration for the contribution 
that it has made to address this crisis, the largest from any 
donor country to date.
    But, as the crisis continues to drag on, we must look for 
sustainable ways to support those displaced by war. Efforts to 
shore up host countries like Lebanon and Jordan must focus on 
increasing capacity of schools and healthcare centers, finding 
work that will allow refugees to contribute to the communities 
that are hosting them. I was pleased to see the conclusion last 
spring of the new MOU with our ally Jordan that will help to 
strengthen one of our best partners in the fight against ISIS.
    We all know that the only end to this crisis will come 
through a political solution. Speaking yesterday, Ambassador 
Power said there is, and I quote, ``an inextricable linkage 
between the political transition negotiations--which, of 
course, urgently have to take place--the deterioration in 
humanitarian access, and the escalation of violence on the 
ground, which is having a very negative bearing on the 
cessation of hostilities, which had reduced violence 
substantially.'' There is so much that we have to be engaged in 
at so many levels in Syria.
    In addition to Syria, the humanitarian situation in Yemen 
continues to worsen. As political talks stall, the needs of 
those on the ground are increasing, and the U.S. and other 
donor countries must be able to respond accordingly.
    In Tunisia, we look for ways to bolster the country's 
economy and nascent democracy while stabilizing the security 
situation. The Tunisian Government has thus far responded well 
to the number of deadly attacks over the past year, and we have 
seen positive results from our efforts to help Tunisian 
security forces professionalize in these difficult 
circumstances.
    However, it is troubling that the largest contingent of 
foreign fighters to ISIS are Tunisian, and the entrance of ISIS 
to Libya will continue to pose a threat to the region, and 
especially to Tunisia.
    The security situation in Libya is tenuous. Just last week, 
U.S. General David Rodriguez, the outgoing Commander of 
AFRICOM, said that the number of ISIS fighters in Libya has 
doubled in the past year. That is why it is more important than 
ever that Libya move forward with implementing a unity 
government. A strong central government backed by Libyan 
security forces is the only way to keep ISIS at bay.
    Combating ISIS in North Africa will require strong 
cooperation across the Maghreb. Morocco and Algeria must play a 
significant role in intelligence-sharing, both with its 
neighbors as well as with the U.S. and Europe, to track foreign 
fighters and terrorist cells. As we work to combat extremism, 
we appreciate the cooperation between Egypt and Israel in the 
Sinai and Egypt's efforts to control the flow of dangerous 
materials in and out of Gaza and destroy Hamas' terror tunnels.
    But, however strong and necessary our security cooperation 
and coordination is, we must also prioritize human rights. 
Human rights must always be a part of the conversation, even 
when difficult. And I am troubled by continued reports of mass 
sentencing, restrictions on civil society, and most recently, 
the potential reopening of the NGO case that saw 43 NGO workers 
arrested and convicted, including several Americans.
    We have also deepened our coordination with our GCC 
partners to confront mutual security threats, including Iranian 
aggression. These countries must also be committed to 
countering violent Islamic extremism and speaking out against 
the radicalism and terrorism. We must always be sure that 
nothing we do in the region threatens Israel's qualitative 
military edge. Israel remains under constant threat from 
Palestinian terror attacks, Hamas rockets, Hezbollah advanced 
weaponry, and ballistic missiles launched from Iran emblazoned 
with the words, ``Israel must be wiped off the earth.'' I would 
urge the administration to ramp up its efforts to conclude a 
new Memorandum of Understanding that will ensure that Israel 
has what she needs to defend herself for years to come.
    As we continue to work toward the goal of two states for 
two peoples, I would hope that the administration will work to 
prevent any attempts to circumvent the direct negotiation 
process, which is the only way that peace can be achieved. Our 
efforts would be better served urging President Abbas to build 
up state institutions, to reform his economy, to commit to 
transparency and accountability, and to return to the 
negotiating table.
    With respect to Iran, I cannot urge the administration 
enough to fulfill its promises to crack down on Iran's myriad 
of bad behavior, including the repeated missile tests in 
blatant disregard of international law, its egregious human 
rights violations, and its continued support for terrorism. The 
U.S. Navy last week intercepted a shipment of Iranian weapons 
bound for Yemen, and this continued bellicosity is 
unacceptable. No agreement precludes this country from 
sanctioning every person, every entity, and every sector 
involved in these dangerous activities. The Nuclear Agreement, 
as we all know, was meant to apply only to nuclear activities 
and the nuclear program. International law and U.S. law 
permits, and I think requires us, to take strong action to stop 
and to combat Iran's bad behavior in these other areas.
    And I would also be remiss if, Secretary Patterson--if, 
Madam Chairman, you will just grant me an extra 30 seconds--I 
would be remiss if I didn't once again implore the 
administration to continue to working to bring home my 
constituent Robert Levinson. Just days before the ninth 
anniversary of Bob's disappearance last month, I had the honor 
of joining Bob's wife Christine and the Levinson children at a 
rally in Bob's hometown of Coral Springs in south Florida. No 
family deserves to go through what the Levinsons are going 
through, being away from their husband, their father, and 
grandfather, with no answers for 9 years. And I know that 
Secretary Kerry continues to push for Bob's return, but I would 
ask that this be the highest priority in every single 
discussion with the Iranians.
    There is no substitute for robust American engagement and 
leadership in this challenging region as a whole, and I look 
forward to hearing how the President's budget request will help 
fulfill that goal and protect the security of this country and 
of our friends and allies in the Middle East and North Africa.
    Thank you, Madam Chairman. I yield back.
    Ms. Ros-Lehtinen. Thank you for an excellent opening 
statement, and thank you for your leadership, especially on the 
Levinson case. They are fortunate to have such a strong leader 
voicing their concerns.
    I would like to recognize members for opening statements, 
and we will begin with Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you, Madam Chair, for your dynamic 
leadership.
    Secretary Patterson, you have provided that the top line 
for the State Department and for the Agency of International 
Development will have a budget of over $50 billion with around 
$35 billion in the base budget and $15 billion in OCO. I have 
seen firsthand America being successful in the Middle East and 
around the world to aid our allies for their citizens to have 
fulfilling lives.
    The budget number is particularly significant this year 
because of the threat of Iran who stands to gain as much or two 
or three times this amount in cash windfall due to unfrozen 
assets as part of the tragic Iranian nuclear deal. We have seen 
Iranian support and financing of the Houthi rebels in Yemen, 
funding and support for Hamas in Hezbollah, providing rockets 
to threaten Israel, funding for terrorists and insurgents in 
Iraq, and support for Afghani Taliban for their terrorist 
activities. All of these groups have a goal of killing American 
military and bringing mass murder to families at home in the 
United States.
    The concerns of Congress of the failing Iranian nuclear 
deal have been bipartisan. I particularly appreciate today the 
ranking member Ted Deutch raising issues and concerns. With all 
the United States can accomplish in the Middle East with the 
funding that we are providing, the damage that Iran stands to 
do in the region with $150 billion of cash windfall is 
dangerous. I look forward to continuing to work with my 
colleagues on the committee in ensuring proper oversight of the 
implementation of the bizarre Iranian nuclear deal.
    Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Wilson.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair and Ranking Member 
Deutch, for calling this hearing to assess President Obama's 
Fiscal Year 2017 budget request for the Middle East and North 
Africa.
    And thank you, Ambassador Patterson and Administrator 
Alexander, for being here today. I look forward to hearing from 
you, and I want to thank you both for your dedication and your 
service to our country.
    The Fiscal Year 2017 request of $7.17 billion for the 
region is an increase of almost 9 percent over Fiscal Year 2015 
enacted levels. The vast security and humanitarian needs in the 
region certainly justify increased spending levels, and I look 
forward to hearing from our witnesses about how the United 
States will make sure this money is used for effectively to 
achieve American strategic priorities.
    This budget request is an issue of critical importance, 
especially during this time of great flux and threats to global 
security. From the civil war in Syria and its subsequent 
humanitarian and refugee crisis to the threat of ISIL, Boko 
Haram, and other extremist groups who seek to undermine 
stability and security throughout the region, to many 
humanitarian perils faced by millions of people in the region, 
it is more important than ever that U.S. foreign assistance is 
targeted, responsive, and able to meet our principal goals.
    As Ambassador Power states in her written testimony, the 
Middle East and North Africa present the most demanding 
challenges to U.S. foreign policy and national security. 
Through the work of the State Department and USAID, we must 
remain engaged and do all that we can to help the nations of 
this region to be more self-sufficient in terms of providing 
for its people through good governance, democratization, and 
less susceptible and better able to repel extremist threats.
    Thank you, and I look forward to your testimony. And I 
yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair.
    And for each of our two witnesses, it is incredibly an 
opportune time for you to be here. I have two areas of 
particular concern that I will be following up with questions 
on.
    Ambassador Alexander, in your case the education of as many 
as 800,000 Syrians in Lebanon and countless more internally 
displaced concerns me in that USAID and all of our refugee 
organizations seem to be looking at doing, but not 
accomplishing the ultimate goal. Lebanon is ill-equipped to 
educate 500 to 800,000 additional students, and even if they 
were, they have no structural plan to do so.
    Some of the programs USAID has begun with are interesting, 
including the radio broadcast as a form of education, but they 
fall far short of two goals. One is education that can be 
verified for purposes of higher education later. The second is 
a form of education that clearly allows us to have our imprint 
of non-radicalization on that education process. I think both 
of those fall clearly within, between the two of you, a 
requirement to make sure there is a strategic plan for all the 
youth in the region, both those who work much of the day and 
get limited education and those who may be able to participate 
in more conventional.
    Secondly, Ambassador Patterson, you and I have visited many 
times. You are always at the center of tough situations. Your 
time in Egypt causes me to say this today: The multinational 
force observers has out lived its historic role. That has been 
made very clear by my own and another Congressman's visit to 
the region into the North Station. They are today simply 
sitting ducks hunkered down, highly protected, including 
massive EOD assets, for purposes of a count that has not been 
miscounted or misunderstood or argued for more than 8 years, 
even with a minor exception, and more than a decade without any 
real argument.
    As you know, Israel today counts on very large forces of 
Egyptians to help with the fight against ISIS in the Sinai. I 
urge you to recognize that now is the time to recognize that 
that force existed, although technically to count number of 
soldiers and police, it really existed to ensure a peace in the 
region between two countries. Today that force must be 
positioned to assist both Israel and the Egyptians in 
recognizing where ISIS and Hamas are operating, what they are 
doing, and providing the eyes necessary to help them do their 
job better. I am not calling for a moment for the withdrawal of 
those troops or those personnel, brave as they are, but I want 
their purpose to be one of peacekeeping between two allies 
today in the war against ISIS. I hope you can take that back to 
Secretary Kerry on behalf of the committee.
    And I thank the chairwoman for her indulgence.
    Ms. Ros-Lehtinen. Very good items that you bring up.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair.
    I just thank you all for being here again, once again.
    I had the honor of traveling with our chair, Mr. Royce, 
this past week. We were in Jordan, Iraq, and Tunisia, and it 
was quite an enlightening and rigorous schedule. Madam Chair, 
my back is still hurting from the body armor really.
    But some takeaways. It is not only the threat of terrorism, 
which is real in so many of these countries in the Middle East, 
but they are in terrible economic crisis, to the point where--I 
will use Iraq as an example. I mean, they are not even able to 
pay for their own army.
    There are a lot of moving parts, but what was very clear to 
me, No. 1, our own security and the security of allies, not 
only in the Middle East, but in Europe and other places, will 
be affected greatly by the stability in the Middle East.
    My second takeaway was that, or this may be my third 
takeaway, is that our leadership is absolutely needed. There is 
no question about it, not only from a military point of view, 
but just in terms of economic development, education, 
humanitarian, other humanitarian assistance.
    So, I very much look forward to what you have to say this 
morning. And again, thank you for your service.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Mr. Trott?
    Mr. Trott. I would thank Chairwoman Ros-Lehtinen and 
Ranking Member Deutch for holding this hearing, and to our 
esteemed witnesses for testifying and sharing their valuable 
insight on an unstable, but crucial part of the world.
    Ambassador Patterson, before assuming your current post, 
you were our Ambassador to Egypt and served during a very 
turbulent time. You had a unique perspective on the Muslim 
Brotherhood, one that I am hoping to hear more about from you 
today. For reasons unclear to me, the State Department still 
refuses to recognize the Muslim Brotherhood as a terrorist 
organization.
    I am proud to cosponsor legislation in the House, the 
Muslim Brotherhood Terrorist Designation Act, and I am eager to 
see it on the Floor for a vote in front of the full House. In 
recent years, the copts have suffered terrible attacks and 
violence. The attacks were clearly well-planned and 
coordinated, not random acts of violence, as some have 
suggested. After listening to their rhetoric laced from remarks 
coming from their leadership, it is not surprising that they 
would take out their anger on Egypt's most vulnerable. To make 
matters worse, the Muslim Brotherhood's official account still 
espouses and congratulates violence while implicitly, if not 
explicitly, trying to encourage violence against the state and 
religious minorities.
    I am disappointed the State Department hosted them for 
official meetings last year. When I questioned Secretary Kerry 
about this, he claimed that the State Department somehow didn't 
know they were part of the Muslim Brotherhood until after the 
visit, something I find difficult to believe.
    As a country that promotes religious tolerance and 
acceptance all over the world, I find it reprehensible that the 
administration claims to promote these values, yet goes around 
and invites and holds meetings with the various people that 
have dedicated themselves to religious intolerance and 
violence.
    I look forward to your testimony and explanation as to how 
much more damage the Muslim Brotherhood needs to cause before 
we call them terrorists.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Amen. Thank you very much, Mr. Trott.
    And we are so happy to welcome back wonderful witnesses who 
are always accessible to us, and anytime we call them, they 
say, ``Yes. When do you need us?'' So, thank you, ladies, very 
much for being so good to our subcommittee.
    First, we are pleased to welcome back Ambassador Anne 
Patterson, who is Assistant Secretary of State for Near Eastern 
Affairs. Ambassador Patterson has served as the U.S. Ambassador 
in El Salvador, in Columbia, in Pakistan, and in Egypt. She has 
also been Assistant Secretary of State for International 
Narcotics and Law Enforcement Affairs, Deputy Permanent 
Representative to the United Nations, and the State 
Department's Deputy Inspector General.
    Welcome back, Ambassador Patterson.
    We also want to welcome back another good friend, Assistant 
Administrator Paige Alexander of the Bureau of the Middle East 
at USAID. Previously, Ms. Alexander has served as the Assistant 
Administrator of the Bureau for Europe and Eurasia, as well as 
Associate Director of Project Liberty at Harvard University's 
John F. Kennedy School of Government. She has also served on 
the Board of the Basic Education Coalition and the Project on 
Middle East Democracy.
    Thank you so much, ladies, and the floor is yours. We will 
start with Ambassador Patterson.

    STATEMENT OF THE HONORABLE ANNE W. PATTERSON, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ms. Patterson. Thank you, Madam Chairman, Ranking Member 
Deutch, members of the subcommittee. Thank you for inviting us 
to appear before you today to discuss the President's Fiscal 
Year 2017 budget request. We appreciate the subcommittee's 
continued support and congratulate its initiatives, most 
recently, for the Hezbollah International Financing Prevention 
Act of 2015.
    The Middle East and North Africa present the most demanding 
challenges to U.S. foreign policy and to our national security. 
As you know, the administration's highest priority continues to 
be the safety and security of the American people and the 
American homeland. This is why we are leading the global 
coalition that will defeat ISIL, are actively engaged in 
supporting the cessation of hostilities and political 
negotiations in Syria, and are advancing peace in Yemen and 
Libya. Each of these conflicts poses its own unique challenges 
to our national security with the potential for serious 
economic repercussions.
    Continued full implementation of the Joint Comprehensive 
Plan of Action will ensure Iran's nuclear program remains 
exclusively peaceful. Nevertheless, we remain deeply concerned 
about Iran's destabilizing activities.
    The President's foreign assistance request for the Bureau 
of Near Eastern Affairs is $7.3 billion. This includes $3.1 
billion to support our enduring commitment to Israel's 
security, $1.5 billion for bilateral cooperation with Egypt to 
advance our national and regional security interests, and $1 
billion to continue our strategic partnership with Jordan on 
issues ranging from countering violent extremism to advancing 
Middle East peace.
    In the coming year, potential openings in Yemen and Libya 
further highlight how we must work to support U.S. engagement. 
We must be poised to further our relationship with the Libyan 
Government of National Accord as it works to reunite the 
country, revive the living economy, and confront ISIL. In 
Yemen, we must help the Yemenis reestablish governance, reclaim 
space from AQAP, and counter a growing ISIL threat, as well as 
revise their badly-damaged economy.
    Our capacity to react quickly in changing environments like 
these will require your continued support and flexibility. 
However, we cannot focus on crises alone. There are examples of 
success in the region, and it is in our long-term interest to 
invest strategically.
    In Tunisia, we see a burgeoning democracy in need of our 
support, and in Morocco our strong partnership spans from 
security cooperation to addressing economic challenges. This 
budget provides the resources to support U.S. engagement with 
both Morocco and Tunisia.
    As part of our efforts to degrade and defeat ISIL, the U.S. 
is leading a coalition of 66 states and organizations. The 
request also includes funding to provide training and equipment 
to forces fighting ISIL, help stabilize communities liberating 
from ISIL and Syria and Iraq, strengthens our regional 
partners, and supports a political solution to the Syrian civil 
war.
    For Iraq, the FY17 request includes $510 million, an 
increase over previous years, largely to provide increased 
economic assistance to stabilize the Iraqi economy and maintain 
critical security assistance.
    In Syria, the request of nearly $239 million will provide 
support to the moderate Syrian opposition to help achieve a 
political solution and counter extremist threats, including 
from ISIL and Jabhat al-Nusra.
    In Jordan, we remain a strong supporter of the government's 
efforts to maintain security, stability, and prosperity, 
particularly in light of the crises on Jordan's border.
    And in Lebanon, we are supporting their efforts to cope 
with the spillover effects of the crisis in Syria.
    Our request also represents our firm commitment to working 
with Israel and other regional partners to counter Iran's 
destabilizing activities in the region. Let me assure you that 
Israel's security remains a top priority for the 
administration. It is critical for both the Israelis and the 
Palestinians that steps are taken to promote stability. So, we 
are requesting $364 million in foreign assistance to support 
the Palestinian people with programs to bolster economic 
development, improve health and education, and enhance security 
on the ground.
    In Egypt, we have long enjoyed a strategic relationship 
which furthers our national interests. Nonetheless, we continue 
to press the Egyptians about our concerns regarding their human 
rights record.
    Madam Chairman, I also want to stress the importance of our 
regional programs. They not only complement our ongoing 
bilateral assistance, but they are also a tool for advancing 
our interests.
    The Middle East Partnership Initiative furthers U.S. 
engagement with civil society across the region. It empowers 
women, fosters entrepreneurship, engages at-risk youth, and 
develops the capacity of local organizations.
    I want to thank this subcommittee for your ongoing support 
as we continue to advance our interests in the Middle East. I 
look forward to answering your questions.
    Thank you.
    [The prepared statement of Ms. Patterson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Madam Ambassador.

     STATEMENT OF THE HONORABLE PAIGE ALEXANDER, ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Alexander. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, members of the subcommittee. We appreciate the 
opportunity to be up here to talk about the President's Fiscal 
Year 2017 budget.
    The region is faced with complex challenges driven by deep 
political divides, economic and social forces. It is critical 
that the U.S. maintain its engagement and interest in this 
region. Conflict and the resulting humanitarian and refugee 
crisis have significantly compounded the challenges. These 
conflicts have cut economic output in Syria by 30 percent. The 
influx of refugees has lowered wages in some of the most 
vulnerable host communities. And most alarming is 13 million 
children are out of school due to this conflict.
    It may be useful to think of USAID's response in three 
critical areas: Mitigating the human impact of ongoing 
conflicts, supporting core U.S. national security objectives, 
and fostering inclusive development and reform opportunities as 
they arise. My statement for the record includes more details 
of AID's priorities, but I wanted to go through a few here.
    Serious development challenges and indicators show a 
rollback of nearly four decades due to the conflict. In 
addition to the U.S. remaining the world's largest donor of 
humanitarian assistance for the Syrian conflict, the 
President's budget will request continued American people's 
support for the development needs within Syria as well as 
critical support for Syria's neighbors.
    The crisis has placed an enormous strain on the neighbors, 
many neighboring countries, including our ally Jordan. We 
continue our six-decade partnership with Jordan to address the 
development challenges, including low economic growth, 
overcrowded schools, and scarce water resources.
    NBC Nightly News recently did a story about a school 
principal in Jordan who was trying to talk about the 
overcrowding in her school and that Syrian parents continued to 
come and ask that their children be allowed in. She offered 
that they could come if they just brought a chair. We work with 
this principal and thousands of other educators like her to 
make sure that we are providing these services.
    In Lebanon, some estimates say that one out of every three 
people is a refugee. The President's request would support the 
Lebanese communities hosting refugees, helping them provide 
basic services like education, water, infrastructure, and 
support municipalities and civil societies, as well as job 
creation and economic growth activities.
    For Iraq, the President's 2017 request includes an increase 
of funding to help address the grave economic challenges that 
they are facing. We will also work with Baghdad and the local 
governments in support of decentralization efforts. Our support 
will ease the burden of Iraq's fiscal crisis as it struggles to 
defeat ISIL and stabilize liberated areas.
    The U.S. Government and the American people have a 
longstanding relationship with Egypt and the Egyptian people. 
USAID continues to work in partnership with the Egyptian 
people, but we remain deeply concerned about the restrictions 
in space for civil society and the reported investigations in 
NGOs by the Government of Egypt. USAID and the State Department 
continue to engage with our Egyptian counterparts on this 
issue.
    Given the current challenging environment, AID continues to 
focus its programs in areas where we believe we can achieve 
results. In the West Bank and Gaza, U.S. assistance to 
Palestinian people is a key part of the U.S. commitment to 
negotiate a two-state solution. Our assistance contributes to 
building a more democratic, stable, prosperous, and secure 
Palestinian society, a goal that is in the interest not only of 
the Palestinian, but of Israel and the United States as well.
    For Fiscal Year 2017, we will promote stability in the West 
Bank by improving service provision and healthcare, education, 
water, and roads, while also supporting the private sector and 
civil society. In Gaza, we will provide needed humanitarian 
assistance while at the same time addressing pressing needs, 
particularly in the water sector.
    As the peace process proceeds in Yemen and the security 
environment allows, USAID will provide the expertise to support 
the negotiation process while supporting civil society and the 
inclusion of women and youth.
    In Libya, the 2017 funding will support the Government of 
National Accord and deliver targeted assistance to support a 
stable political transition.
    Where we are able to in the region, we aim to help our 
local partners address frustrations brought on the people in 
the streets 5 years ago. In Morocco, USAID is well-positioned 
to advance the country's critical economic and social reforms.
    Among those who benefit from our programs were to teenaged 
boys in northern Morocco who were planning to head to Syria and 
stopped in first at a USAID-supported youth organization. A 
trained youth officer was able to convince them of an alternate 
path, setting them up, instead, with jobs at a local 
construction company.
    Before I conclude, I would like to speak about Tunisia, 
which has been relatively successful in its transition, but 
still needs our support. Tunisia is the only country from the 
2011 Arab Awakening that has defined a path toward democracy. 
The President's 2017 request will provide additional resources 
to support Tunisia as it consolidates these gains, including 
expanding economic and governance partnerships between the U.S. 
and Tunisia.
    AID's efforts in Tunisia have created nearly 4,000 
sustainable private sector jobs last year, and we expect our 
interventions will result in more than 5,000 additional jobs 
this year.
    We face significant challenges in the Middle East and North 
Africa, but the American people can be proud that, through 
USAID and with the support of Congress, we are helping millions 
of people in the region, whether it is the girl at the STEM 
school in Egypt who has conquered intel science or whether it 
is the teacher and the principal in Jordan who have invited 
other Syrian children into her classroom. These are some of the 
concrete examples of our programs.
    I am proud of the innovative work that we have been doing 
to meet the many challenges of the region, and we will continue 
to work better, smarter, and faster to support the people of 
the Middle East and North Africa on behalf of the American 
people.
    Thank you for your support, and I look forward to your 
questions.
    [The prepared statement of Ms. Alexander follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to both of our 
witnesses. I would like to, once again, welcome you both back 
here and thank you for your continued service on behalf of our 
country.
    Assistant Secretary Patterson, I wanted to follow up on a 
question that I had posed to Secretary Kerry in February. I 
asked if the administration will veto any resolution at the 
U.N. supporting Palestinian statehood. He stated that it was 
the policy of the administration to oppose any one-sided 
resolution that would be unfair to Israel, but he didn't give a 
blanket statement that, yes, the U.S. would veto.
    So, I want to clear this up just a bit more because last 
week the Palestinian Authority, the PA, distributed a draft 
resolution to a number of members at the U.N. Security Council 
similar to the one that the U.S. did, in fact, veto in 2011. 
This absence of an American voice saying that we will veto 
gives wind beneath the wings of the Palestinians to continue 
this unilateral statehood scheme.
    So, will the administration state unequivocally that we 
will not introduce, we will not support, that we will block, 
that we will veto any resolution at the U.N. Security Council 
that seeks to impose a two-state solution on Israel or that 
offers some artificial timeline for negotiations?
    Ms. Patterson. Madam Chairman, let me answer this question 
this way: This administration, there was an article in the 
newspaper a few days ago that this administration has been the 
most vigorous in history in pursuing and protecting Israel's 
interest in the United Nations system. And I can speak to that 
from personal experience, both at the Security Council and the 
GA and in the specialized agencies.
    I can't say without seeing a resolution--and we are 
familiar with this resolution----
    Ms. Ros-Lehtinen. But there is--it is not a hypothetical.
    Ms. Patterson. No, it is no hypothetical.
    Ms. Ros-Lehtinen. Have you seen the resolution?
    Ms. Patterson. But it has not been introduced into the 
Security Council.
    Ms. Ros-Lehtinen. But the draft exists.
    Ms. Patterson. A draft exists and----
    Ms. Ros-Lehtinen. Have you seen it?
    Ms. Patterson. And I haven't personally seen it, but it 
hasn't been introduced into----
    Ms. Ros-Lehtinen. Do you think that perhaps this lack of 
clarity to say we vetoed it before, we are going to veto it 
again, and here is the draft, and if this draft is going to be 
worked, we will veto it--when we don't say that, they are going 
to continue with their unilateral statehood schemes. Wouldn't 
you?
    Ms. Patterson. Madam Chairman, all I can say is I think the 
administration's record on this is pretty clear. It is very 
clear----
    Ms. Ros-Lehtinen. I know. That is why it is worrisome. It 
is clear.
    Ms. Patterson. And we have defended Israel vigorously. So, 
I can't say without seeing the resolution because, like most 
things----
    Ms. Ros-Lehtinen. Well, it is not a hypothetical. It 
exists.
    But, staying with the PA, Madam Ambassador, money is 
fungible, and any amount of money that--oh, Mr. Chairman?
    Mr. Royce. Good to see you, Madam Chair.
    Ms. Ros-Lehtinen. Let me just wait right here. I heard a 
lot of rumbling here, but I did not look aside. So, I will stop 
here and let me recognize the chairman of our committee, Mr. 
Royce, for his questions.
    Mr. Royce. Well, thank you. I thank our chairman emeritus 
here.
    And, Secretary Patterson, it is good to see you again.
    Let me ask, since that issue was the one you were speaking 
on, and Mr. Deutch and I have had some discussions about this 
as well, and you have really led on this issue: What concerns 
us is twofold. It is not just that for some years now you have 
a system where, basically, there has been an inducement to pay 
human assassins to seek out innocent people and kill them. And 
then, a stipend is given for the time that those individuals 
serve in custody for their crime, and that stipend is dependent 
upon the severity of their crime. In other words, the amount 
per month paid into the fund or going to the family is 
dependent upon how heinous the crime, how many victims. In 
addition, if it is bad enough, you serve enough time, then you 
are automatically given a position in a Palestinian Authority 
once you get out. That was the old system.
    Now you were before the committee before and were asked 
about this. At the time you indicated, well, that is being--
what were your words at the time?--I think ``phased out'' or 
something, words to that effect, and that we should give them 
more time because they are phasing it out.
    Let me just share for you and for the committee members 
here, Mr. Deutch and others, what we have observed since then. 
And that is that this process is not only continuing, but 
rather than the PA make the stipend directly out of the budget, 
what they have instead done is go to the PLO budget and make a 
transfer to the PLO for a sum. Let's say the original budgeted 
item for assistance with the Palestinian Authority's prison 
funding was $8 million. Suddenly, it goes up. Suddenly, it goes 
up to $140 million. Well, the difference is the sum taken off 
of the books of the PA, but it is in the same building. The PA 
Ministry of Prison Adjudication, or whatever, is the same 
ministry as the PLO. As a matter of fact, it is the same 
minister. I believe you will find that to be the case.
    So, in fact, they weren't phasing it out. What they were 
simply doing was transferring the entire sum over to the PLO, 
so that that payment could continue to be made. And I think we 
should understand that, besides the fact that the donor 
community is paying into the Palestinian Authority and the end 
result is to create a system to recruit human beings to carry 
out attacks and, then, serve their time and be rewarded with a 
stipend not just for the family, but a retirement afterwards 
and a job in the Palestinian Authority if it is egregious 
enough. These are real concerns about how we prepare people to 
put the foundation down for peace.
    Second, I want the Europeans to know what is going on, and 
you are going to have the opportunity to dialog with Europe 
about this and other problems. As I shared with Dr. Abbas and 
Mr. Deutch shared as well, when we were there talking with him 
about the issue of incitement, it is very, very important that 
the right foundation be laid for preparing future generations 
of young Palestinians and young Israelis to live in peace. And 
surely a system which tries to recruit more girls to do killing 
because you get an additional stipend if you are a girl or 
there is a stipend upon a stipend if you are an Israeli and 
commit an act against another Israeli--this is a very perverse 
creation, unbelievably perverse. And I would like your response 
there.
    Second, how did you mean that to be taken by us at the 
time, by the committee, when you said they are phasing this 
out? Did you know that they were going to simply transfer this 
to the PLO, and in that sense they were phasing it off their 
books, but they weren't phasing it out? They were simply 
disguising the funding. I wanted to ask you about that.
    Ms. Patterson. Well, thank you. Thank you, Chairman Royce.
    No, I didn't know that. What I was basing that on was my 
own discussions with Palestinian members who said they had been 
phasing it out for financial and the other reasons that you 
discuss. And I totally agree with you that this is an egregious 
practice.
    But let me also stress, Mr. Chairman, that I think our 
assistance to the Palestinian Authority does many beneficial 
things in maintaining security and promoting entrepreneurship 
and promoting better health standards and infrastructure 
development, and is absolutely essential for the stability in 
this part of the world.
    So, we will continue to press them on this issue, which I 
entirely agree with you is an unacceptable one.
    Mr. Royce. Ambassador, the donor community is helping the 
Palestinian Authority basically pay people to slay other 
people. So, here is my point: I want us to use our considerable 
leverage to end that practice. And second, I would really like 
the European community, in our dialog with them, to fully 
comprehend what is going on in this process of the inducements 
of paying people to get them to go out and slay other human 
beings. Can you do that? Can you assure us----
    Ms. Patterson. Yes. Yes, sir.
    Mr. Royce [continuing]. That both of those----
    Ms. Patterson. We will certainly take that up with----
    Mr. Royce [continuing]. Will be at the top of your agenda, 
conveying that? So that, when the European delegations come in, 
they will be asking me as well, ``What are we doing as Members 
of Congress to end this practice?''
    Ms. Patterson. No, we will certainly talk to our European 
colleagues.
    There is a point, another point, I would like to make, Mr. 
Chairman. None of our money goes to this. It is not fungible in 
that respect. Our money goes essentially to pay PA Authority 
debts to Israel and to other creditors. So, the budget relief, 
the budget support that you see in the budget goes to creditors 
and cannot be diverted to these stipends.
    Mr. Royce. Yes, but the reality is that the donor community 
is coming together internationally to fund the Palestinian 
Authority. Our hope had always been that this would be used for 
a certain type of textbooks, to actually teach kids in 
education, instead of how to hate; for a certain kind of 
broadcasting that would be inclusive, that would maybe be about 
political tolerance and about, oh, you know, religious 
tolerance and laying the foundation for peace. And that, also, 
in terms of the prison system, it might be about rehabilitation 
instead of creating a system where you are encouraging 
additional people to go out and commit murder in order later in 
life to get a position of high authority in the Palestinian 
Authority itself.
    And so, since the donor community is putting money into 
that pot in order, in one way or the other, to help the 
Palestinian people, regardless of how we perceive it, we have 
to use our leverage to cut this out. And now is the time to do 
it, and now is the time to have this dialog, because they just 
upped the ante basically by now paying people an additional--an 
additional--stipend if you commit crimes within Israel, within 
the borders of Israel.
    I know they don't recognize borders because I asked Mr. 
Abbas that very question. Mr. Deutch will remember I asked him, 
``By the way, where is Israel on your map?'' when we were 
discussing incitement. And he said, ``Where is your map? Show 
me your map.''
    Here is the point: We, the donor community, are putting the 
money in. Let's make sure that it goes to the next generation 
of young Palestinians having an attitude of wanting to have 
peace, wanting to negotiate with Israelis, and wanting to do 
something other than wipe them off the map or slay them. And 
that is my point.
    Ms. Patterson. Mr. Chairman, rest assured that this will be 
a subject of discussion with the rest of the donor community. 
We see Europeans and other donors all the time. And rest 
assured your points will be conveyed with our full concurrence.
    Mr. Royce. Thank you. Thank you, Secretary Patterson.
    Ms. Ros-Lehtinen. Mr. Chairman, you are welcome to come in 
and crash our subcommittee anytime. [Laughter.]
    Please do so more often.
    Mr. Royce. Well, actually, I am a member of the committee, 
too.
    Ms. Ros-Lehtinen. Okay.
    Mr. Royce. But I appreciate your forbearance. I appreciate 
the forbearance.
    Ms. Ros-Lehtinen. It is much more fun to say ``crash.'' 
[Laughter.]
    Are you sure you are done?
    Mr. Royce. Yes.
    Ms. Ros-Lehtinen. Because you are fired-up. We will keep 
you going.
    Mr. Royce. No, no, I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. All right. Thank you.
    And I will just wrap up, because everything he said, ditto.
    Let me just ask a question on Morocco. Recently, U.N. 
Secretary General Ban Ki-moon claimed Morocco is occupying the 
Western Sahara, an unbelievable violation of U.N. neutrality. 
The U.S. is tasked with drafting the resolution that will renew 
the mandate of MINURSO. It is very important that the draft 
resolution be clean without any divisive language. Is the 
administration willing to work with Congress and our ally 
Morocco to strengthen our bilateral relationship while avoiding 
this mess created by Ban Ki-moon? And where does that draft 
resolution currently stand?
    Ms. Patterson. Thank you, Madam Chairman.
    Yes, this was a very, very unfortunate occurrence. The 
Secretary has been on the phone with the King and with his 
counterpart, Foreign Minister Mezouar. And we have tried to do 
everything possible to basically help them restore relations, 
because, again, a very unfortunate incident between the U.N. 
and the Government of Morocco.
    Morocco is one of our strongest allies. They are a critical 
partner in the counterterrorism field. They have made very 
significant advances in governance and human rights. We very 
much value our relationship.
    The resolution, Madam Chairman, hasn't been drafted. We are 
discussing that in the administration. We certainly will take 
your views into account, and I stress the----
    Ms. Ros-Lehtinen. What is the timeline for the resolution?
    Ms. Patterson. The timeline for the resolution, I think we 
have a few more weeks. Thank you. But we will talking with the 
committee.
    Ms. Ros-Lehtinen. Please keep us abreast. Thank you so 
much.
    And thank you, Mr. Deutch, for your patience, and take as 
much time as you would like.
    Mr. Deutch. Thanks very much, Madam Chairman.
    Ambassador Patterson, there were a lot of stories in the 
media over the past couple of weeks that Congress was not in 
session about the administration's plans with respect to Iran, 
stories about giving Iran direct access to dollars or to the 
U.S. financial system as part of sanctions relief, the rules 
about indirect use of dollars from transactions with Iran as 
long as they didn't go through U.S. banks.
    Obviously, there are real concerns that many of us on this 
subcommittee share about looking for ways to provide access to 
the U.S. financial system that is not permitted, nor should it 
be permitted, since it is not part of the Iran deal, or access 
to the dollar. So, understanding that much of this falls under 
the purview of your colleagues at Treasury, can you tell us 
anything to help clarify some of these reports, help us 
understand what it is we have been reading?
    Ms. Patterson. Yes. Thank you.
    Secretary Lu said to the Council on Foreign Relations--and 
let me repeat that and make it very clear--Iran will not have 
access to the American financial system. I think there was some 
confusion about this in the financial press.
    But let me say that we do want to carry out our commitments 
under the JCPOA, and companies have not done business in Iran 
for a long time and they need to get comfortable with the 
prospects of this nuclear deal remaining in effect. So, our 
colleagues in Treasury and other agencies are talking to 
businesses. They come to visit us in the State Department 
because our sanctions policy is very complex, so we try to 
explain how they can do business in Iran, should they wish to 
do so.
    But let me say that, while Iran so far has followed the 
letter of the agreement, they also need to send signals to the 
business community that they are not going to engage in 
provocative behavior. When, as Mr. Wilson said, Iran is sending 
weapons to the Houthis in Iran and when they are helping out 
Hezbollah, when they are shooting off ballistic missiles, this 
raises concern in the business community about the safety and 
security of their investment. So, Iran needs to understand what 
a financially-successful country does, that you need to provide 
a safe and secure environment for businesses. So, that is also 
at play here.
    Mr. Deutch. Just a couple of followups. The confusion in 
the financial press, has the administration--I understand what 
Secretary Lu has said. At a lower level has there been an 
engagement with that financial press to help clarify, if there 
were mistakes made, to help them understand, so that they could 
write about those as well?
    Ms. Patterson. I think so, Mr. Deutch, because I, frankly, 
was in a meeting where this was discussed. And one leading 
financial newspaper, I think, was in the forefront of this. I 
think there has been outreach to sort of clear up this issue.
    Mr. Deutch. Just before moving on, I would just point out, 
when we talk about Iran having lived up to its obligations 
under the nuclear deal, without engaging in a longer back-and-
forth about this, the Security Council resolution which does 
lay out the obligations of Iran under the nuclear deal also 
includes the prohibition on ballistic missile tests. And for 
those of us who have real concerns about their ability to 
continue to test ballistic missiles and to develop ballistic 
missile programs, the fact that there have now been multiple 
tests, which clearly violate that Security Council resolution, 
I am appreciative of the administration's position of the 
sanctions that have been imposed, of the strong statements by 
Ambassador Power at the United Nations. I, also, though, would 
take this moment to suggest that, if the Security Council, 
despite our best efforts, will not take action in response to 
these violations of the Security Council resolutions, then the 
ballistic missile tests, which were not part of the nuclear 
deal, as you explained, there needs to be more done to penalize 
Iran. And if the international community won't do it, then the 
United States Congress I think has an obligation to do that, 
something that I know we are looking at, and I think it is 
important for us to move forward on.
    Just quickly--I see I don't have a lot of time--we are over 
5 years now. The London Donor Conference took place February 
4th. The State Department announced over $925 million in 
additional assistance with more than $600 million going to 
lifesaving humanitarian assistance and over $300 million in 
development assistance, including $290 million for education, 
Jordan and Lebanon. And the budget request continues our 
tradition of robust humanitarian assistance.
    But, Ambassador Patterson, given the unfulfilled pledges of 
past years, what do we do to work to ensure that the money that 
is pledged by others is actually received, that they actually 
live up to that commitment?
    Ms. Patterson. Could I first say about the ballistic 
missiles, first, we are pursuing this at the U.N. We are 
imposing sanctions. And critically, I think, we are helping our 
Gulf partners increase their capacity to handle this ballistic 
missile problem, which they are, of course, the most vulnerable 
to Iran's ballistic missiles.
    On the pledges on Syria, I think there has been 
considerable improvement in the compliance with the pledges, 
but it is certainly not perfect. And we are in a very constant 
dialog with the other donors on this to encourage them. I will 
get you the figures later in the afternoon.
    Mr. Deutch. And just one very quick question, Madam 
Chairman. And I am sure this is a question that my staff and 
others on the committee could easily answer, if I had asked 
them, but I didn't.
    Can you help those of us who--we are all so concerned about 
the situation in Syria and the slaughter of Syrian civilians by 
the Assad regime with the support of Hezbollah. The number of 
people killed went up in reports from month to month as reviews 
were conducted. The last official report, the number was 
200,000, 250,000. There are some who now suggest the number is 
closer to a \1/2\ million people. I have heard 350,000. Do we 
have a sense of what the number is? Because the fact that we 
are now well into the hundreds of thousands can't let us just 
accept that the number is so big that 200,000, 400,000--we know 
that Assad is terrible. We know that there is a slaughter. We 
know that the humanitarian impact has been so dire. It is 
important to recognize every one of the people, every one of 
his own citizens that Assad has butchered. Do we have a current 
number?
    Ms. Patterson. Mr. Deutch, the number we use is somewhere 
between 250,000 and 300,000, which I appreciate lacks 
specificity. But it is hard to access some of these areas. For 
instance, mass graves exist. I don't think we really will know 
until this conflict is over.
    But let me also say that that is why it is so important 
this cessation of hostilities holds. Violence has dropped very 
significantly. There are still areas of very intense conflict, 
but throughout most of the country violence is down. So, the 
most important thing we can do now with Syria is try to 
maintain that ceasefire in place.
    Mr. Deutch. Thank you very much. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Excellent 
questions.
    Mr. DeSantis of Florida.
    Mr. DeSantis. Ambassador Patterson, I just want to be 
clear. You said that Iran under the proposed changes would not 
have access to the U.S. financial system. Does that mean they 
would have no even indirect access to the U.S. dollar? In other 
words, would the dollar be allowed to be used to facilitate 
transactions between Iran and other countries?
    Ms. Patterson. They can use the dollar offshore. I mean, 
they can access, if a bank in Malaysia holds dollars and trades 
with a bank in India, yes, they could use dollars.
    Mr. DeSantis. Okay. So, that represents a change from how 
those regulations have been interpreted in the past, correct?
    Ms. Patterson. I don't believe so, sir, but I will have to 
check on that.
    Mr. DeSantis. Because I think there was a lot of talk about 
whether the administration, when the Iran deal has said no 
access to the financial system at all, and that was very clear, 
and now people are saying, ``Well, it is not necessarily going 
to be access because the transactions may be dollarized, but no 
money is going to actually come into the U.S. financial 
system.''
    But, as I understand it, there were members of the 
administration who said even dollarized transactions were not 
going to be something that was going to be permitted. And so, 
am I wrong about that? Have we been getting mixed signals 
throughout these many months?
    Ms. Patterson. I don't know, sir. This is at an 
extraordinarily technical level, and I will get somebody up 
here who knows this subject backward and forward to talk to 
you.
    Mr. DeSantis. Okay. Well, we definitely want to hear that.
    There have been a lot of great questions about money going 
to the Palestinian Authority. I know under the appropriations, 
as those are done annually, there is usually a requirement that 
the President ask for a waiver by certifying that there is a 
single Palestinian treasury and payroll and that the 
Palestinian Authority is acting to counter incitement of 
violence against Israelis. Have those certifications been made 
in the last several years?
    Ms. Patterson. I don't know. I don't know. I don't know. 
Well, I will find out.
    Mr. DeSantis. Well, do you believe that the Palestinian 
Authority is acting to counter incitement of violence against 
the Israelis?
    Ms. Patterson. This is, as you probably know, a subject of 
constant dialog with us and the Palestinian Authority. We have 
many discussions about this.
    On the issue of the single payroll, I was a little 
surprised at that, but we have many discussions with Minister 
Bashar, the Minister of Finance of the Palestinian Authority. I 
honestly would not expect that to be a problem, but we will 
look into this.
    Mr. DeSantis. Because there are, I think, really, really 
grave questions about these families of terrorists who are 
getting paid. A lot of them, they end up better off, their 
families are better off if they commit acts of terrorism 
against the Israelis than if they were to just work at a normal 
job inside areas controlled by the Palestinian Authority.
    And I listened to your back-and-forth with the chairwoman 
and with Chairman Royce, but I am just not clear. Is the 
administration going to do something to address this problem? 
Because it seems like we have money going over there. They may 
say it is with other funds that they are paying it, but money 
is fungible. So, we are effectively helping them do that. So, 
what do we do? Are we deducting the amount that we give them 
based on how much money they are paying families of terrorists?
    Ms. Patterson. Well, no, sir, because we think that our 
program for Palestinian Authority is absolutely necessary, all 
elements of it, and particularly the advances they have made in 
development of the police and the justice system and the 
humanitarian relief that is going both into Gaza and the West 
Bank. But, as I say, we discuss this with them. We take it up 
with them. There are always in all these assistance programs 
conflicting priorities, but I would just stress how important 
this program is for overall stability in the region.
    Mr. DeSantis. Well, I think that if they are actually 
facilitating payments to families of terrorists who are killing 
Israelis, then we should be deducting the amount of money, at a 
minimum. I mean, I would go further than that. But, I mean, at 
a minimum, we can't be complicit in that.
    Let me ask you, there is a bill that is working its way 
through the House of Representatives to have the State 
Department categorize the Muslim Brotherhood as a foreign 
terrorist organization. Does the State Department have a 
position on that?
    Ms. Patterson. The State Department's position, the 
administration's position for many long years has been that the 
Muslim Brotherhood is not a terrorist organization and that 
they denounced violence many years ago. I can't remember the 
exact year, but they denounced violence many years ago. They 
are a legitimate political party in a number of countries in 
the Middle East.
    Mr. DeSantis. So, you don't believe that they are involved 
with international terrorism, the Brotherhood?
    Ms. Patterson. I am sure that some elements of the Muslim 
Brotherhood as well as many other parties are involved with 
terrorists, of course. There may be individual members who are 
involved. But, as an organization, they denounced terrorism 
many years ago. I haven't seen the most recent version of the 
legislation, so I couldn't comment on that.
    Mr. DeSantis. Well, I think that they are really a problem 
aspect of all this. President Sisi, you know, he views the 
Brotherhood as a major threat to security in Egypt.
    I guess, is it the administration's view still that the 
Brotherhood is largely a secular political organization and 
less an Islamist organization?
    Ms. Patterson. Of course it is an Islamist organization. It 
is based and it is the oldest of the Islamist organizations 
and, of course, it advocates, and did in Egypt and elsewhere, 
has a preference, of course, for Sharia law over what we would 
call typical civil law. So, of course, it is an Islamist 
organization.
    Mr. DeSantis. Yes, I mean, I think that their views, they 
do support Sharia. They have a totalitarian ideology. 
Certainly, the treatment of women is terrible. The treatment of 
religious minorities is terrible. And their tentacles really 
stretch. They are involved, I believe, financially in 
supporting violent Islamist groups, and I think that they are 
very much a cause for concern throughout the region.
    I am out of time. I thank you guys for coming, and I yield 
back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis.
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Madam Chairman.
    Ambassador Patterson, the President's budget removes 
Egypt's partial aid conditions, the company national security 
waiver, and the reporting requirement entirely. Would you 
describe the justification for proposing this removal of 
language? And do you think Egypt has made substantial progress 
on human rights that would warrant removal of these conditions? 
This is a pretty significant action.
    Ms. Patterson. Congressman, I think you will find that the 
administration in all these budget documents has removed most 
of those restrictions because, of course, the administration, 
as I mentioned in my oral statement, wants the maximum 
flexibility to implement its programs. So, I wouldn't comment, 
but I will comment, of course, Egypt's human rights situation 
is of great concern to us. There have certainly been reverses, 
significant reverses, in the past few months. So, yes, we are 
very concerned about that, but I wouldn't read the removal of 
that as a comment on the administration's view of Egypt's human 
rights.
    Mr. Cicilline. Well, I guess my concern is, is it read that 
way by the Egyptians? I mean, it may be that that is the policy 
of the Department, but it just seems to me, in the context of 
what we see happening in Egypt, it sends a very strange message 
at a time of increased human rights violations to remove these 
conditions. And so, I would just raise that because I think it 
is very important that that not be the message.
    Would you also describe how the budget reflects resources 
being devoted to combat Iran's terrorist and destabilizing 
activities in the region? There has been a lot of conversation 
about the limitation of JCPOA and our expectation that we would 
be pushing back hard on Iran in a variety of other areas. I 
would like you, if you could, speak to how the budget supports 
responding to Iran's activities in the region. And if there is 
any indication of a change in Iran's behavior and, as a result, 
particularly in the area of human rights, has there been an 
increase in the imposition of sanctions for human rights 
violations by Iran?
    Ms. Patterson. I think the budget supports countering 
Iran's influence in the region in several ways. One is to 
strengthen Iraq, and you notice a very substantial increase in 
our budget for Iraq. So, they are certainly running an 
influence in Iraq that we need to counter, a malign influence.
    In Yemen, we have asked for a substantial amount. We also 
have a good pipeline with Yemen. But it is very important to 
get the Iranians out of Yemen and, to do that, we have to have 
process and, then, strengthen the government, so it can counter 
Iranian influence.
    I might also add that we are very active with our GCC 
partners in strengthening their capacity through maritime, 
through cybersecurity, through ballistic missile defense, 
through improved special forces activities. They pay for most 
of this themselves. It isn't reflected in the budget. But we 
are engaged in a very active dialog. The President is going to 
Riyadh next week to talk to them in more detail about this.
    Then, finally, sir, our Navy and Armed Forces are very 
active in this. There have been, for instance, four 
interdictions of Iranian weapons going to Yemen in the past few 
weeks. So, this is a very high priority for our military 
colleagues operating in the Gulf.
    Mr. Cicilline. And my last two questions, Ambassador. What 
is the status of the MOU negotiations with Israel? Are there 
some additional options being considered, a lot of new threats 
to their security?
    And finally, does the budget reflect any rebuilding in 
Syria or is it really still focused on responding to the 
immediate crisis? And how are we supporting this work to ensure 
that the ceasefire holds? And does the budget provide some 
resources to do that and in what way?
    Ms. Patterson. On the MOU with Israel, there have been a 
number of meetings, very intense and long meetings with the 
Israelis about this. They were extremely useful in giving us a 
good picture of Israel's security needs. As the chairman said, 
they are certainly more acute over the next few years. So, we 
have had a lot of intensive discussions. I honestly don't know 
if we are going to finish this before the end of the 
administration because it is hard, and there are a lot of 
issues underway.
    Let me also stress, Madam Chairman, that protection of QME 
is a centerpiece of this. There is no doubt that that is going 
to be rigorously observed. So, I don't know if we are finished. 
There are lots of financial implications. There are 
implications on sourcing of materials. But we are working hard 
on this. It is a very high priority for the administration.
    And you asked, sir, about Syria. We have asked for 
additional resources for Syria. Some of it will go into 
rebuilding. We have a fund. We have a multinational donor fund 
for rebuilding. It has about $100 million in it. That is 
probably going to be a drop in the bucket. But our efforts 
through Turkey to support the moderate opposition--for 
instance, we have managed to keep 30,000 civil servants and 
teachers and policemen employed through all this. We have given 
grants to local councils. We managed in some places to keep 
health clinics open, even in places that were overrun by ISIL. 
So, we have asked for an increase in Syria, and we hope that 
these mechanisms will provide at least some kind of baseline 
for rebuilding Syria.
    Mr. Cicilline. Thank you. I yield back. Thank you, Madam 
Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    And now, we turn to Mr. Issa.
    Mr. Issa. Thank you.
    Administrator, I will start with you. As I mentioned in my 
opening statement, the number is staggering, but let's just 
look at Lebanon with 500 to 800,000. In this particular case, 
unlike the usual numbers in the Middle East, I think the number 
is probably accurate at 800,000 school-age children who are 
beyond Lebanon's ordinary capability to educate.
    I am going to pose a minute question. My understanding is 
the Minister of Education, who is here in the U.S. right now, 
has issued a number of MOUs. As a matter of fact, it appears as 
though anyone who comes in saying they would like to educate 
these Syrians with Lebanese standards is getting an MOU. And 
then, my understanding is they come to you for money. Is that a 
fair statement, that you are getting a lot of people with 
proposals of how to do it, if you will just provide the 
dollars?
    Ms. Alexander. We have worked very closely with Minister 
Abu Saab, and we are meeting with him again this week. My 
colleague signed an MOU with him last week.
    Mr. Issa. That is the 42----
    Ms. Alexander. That is the $41 million for the basic 
education program. And this program is going to address needs 
for first- through fourth-graders to give them access to basic 
education and early grade reading. This is going to affect over 
100,000 or over 10,000 children.
    Mr. Issa. But it is conventional education expansion?
    Ms. Alexander. It is conventional education. But, at the 
same time, as you had asked in your opening statement as well, 
we are talking to the minister about verification or 
certification of being able to take students who have been out 
of school and get them back into formal education through non-
formal education programs. This is a very important part 
because, as I stated, there are 13 million children out of 
school because of this crisis. Those that are in Lebanon and 
Jordan are both suffering. Without non-formal education, you 
can't have a student who left school as a 9-year-old to go back 
to school as a 15-year-old. They need something in between, and 
they need to get back into the system.
    Mr. Issa. So, how do we leverage e-learning and other 
abilities to provide, if you will, free, notwithstanding the 
delivery device, free education to people on both sides of the 
conflict area? I mentioned the radio one because I became aware 
of it. It is novel. But it is pretty much old school. Most 
people in the Middle East that learn English learn it by 
American songs. Many people who learn Arabic learn it by Arab 
songs. But that isn't necessarily any more productive to real 
education than memorizing the Quran is to producing moderates.
    So, briefly--and you are welcome to follow up with me 
beyond this hearing--what is it we can do to sort of leapfrog 
the incremental dollars where $41 million is proposed to 
provide you 100,000? And those are probably the easiest 100,000 
because they don't include the expansion of schools and 
conventional brick-and-mortar, which could easily be in the 
many billions for what we hope is a shorter period of time. And 
it wouldn't address the people on the other side of the 
conflict line.
    Ms. Alexander. Thank you. I would be happy to follow up 
with you.
    We are actually in the process right now of a co-creation 
with a number of organizations that do non-formal education and 
informal education to look at what some of the best practices 
are worldwide in trying to bring education to populations like 
this. And we would be happy to follow up with you.
    Mr. Issa. Okay. I am going to not make a suggestion that is 
anything more than just a thought that I have had listening to 
many of the groups. In the day of the internet, it would seem 
that today the entire curriculum necessary to provide a 
Baccalaureate, including teaching, should be online, hosted 
somewhere in the world, probably by us in the Cloud, for Arab-
speakers at least in the Levant language designation area to 
get their degrees. It would seem like that is a question of 
producing the content.
    Now, then, getting that delivered is a complex question of 
bandwidth, servers, iPads, whatever the delivery system is. But 
it would seem that, until USAID finds who is going to produce, 
if you will, a complete content that would lead to a 
Baccalaureate and get the Lebanese and other Arab countries to 
buy into the idea that this is moderate, educational, and 
doable, we don't yet, then, have the distribution.
    And I appreciate you keeping teachers working, but I don't 
think we can produce enough teachers ever and paper to deal 
with this in a way that is going to address the young man or 
woman who is working 14 hours a day and only got a fourth grade 
education and will never get more education until we come up 
with an alternate delivery plan.
    Madam Chair, since I appear to be the last, would you mind 
if I go a little longer?
    Ms. Ros-Lehtinen. No. Please do.
    Mr. Issa. Thank you.
    Ambassador, I am going to switch to you. I mentioned the 
multinational force, and I think I was fairly bold in echoing, 
to be honest, The Washington Post and others who have 
recognized that we have a substantial investment there of 
people who are daily often being shelled, who are in harm's 
way, for a mission that is now, from your own experience in 
Egypt, is now by anyone's reasonable expectations no longer the 
mission they were placed there for in the late 1970s.
    What would you say, recognizing that you can't speak for 
the whole administration, to that basic concept that their 
obligation is to peace in the region and not necessarily to 
counting heads at borders?
    Ms. Patterson. Mr. Issa, we are, as you probably know, 
concerned about some of the same issues that you have raised, 
particularly about the safety of American and other----
    Mr. Issa. And our allied partners.
    Ms. Patterson [continuing]. And our allies, the Colombians, 
the Fijians, the others that work with us there----
    Mr. Issa. The Czech?
    Ms. Patterson [continuing]. Who have bravely for many 
years. So, we are discussing a reconfiguration plan that would 
reduce the risk to our personnel and still maintain the 
necessary monitoring through better technology and other 
instruments that have evolved over the past few decades.
    I think the Israelis and Egyptians may not quite see it 
that way, that the mandate is outmoded. And there were, in 
fact, when I was there, some events that required sort of the 
traditional role of MFO to take care of.
    But I thought your idea was an interesting one. I think it 
is contrary to sort of the mandate of MFO, that it would stay 
there as a peacekeeper, but I think it is an interesting idea. 
Let me say that.
    Mr. Issa. Okay. Well, in closing, I love interesting ideas. 
When Congressman Farenthold and I went there now more than a 
year ago and looked at where rounds had landed, met with the 
explosive ordnance disposal team, looked at the threat, 
recognized the active engagement by the Egyptians, active both 
in the air and ground of the newly-formed, if you will, or new 
partnership of ISIS in the Sinai, it became obvious that we 
were currently not participating. And yet, we were there and we 
were, obviously, being attacked by ISIS.
    So, I guess as we look at the interesting idea, I would 
only ask that, if not something similar to the direction that I 
was suggesting that Secretary Kerry and the administration 
might be able to convince--and I am happy to go there. I am, 
fortunately, very well-received on both sides of the Sinai. For 
the fact that we can do more if we have a will to do it and if 
they are willing to let us do it, but if we do just what we are 
doing, we are, in fact, sitting there inevitably waiting to 
lose brave peacekeepers for something which, quite frankly, is 
unlikely to happen.
    As you know, the Egyptians are not likely to mount an 
offensive across the border, and the Israelis are not in 
particular peril, that that would occur. That doesn't change 
the fact that they don't want us to leave, but I do think they 
want us to do more, if we can, and do it in cooperation with 
both countries. So, I leave that with you because I have no 
greater message from that trip than the status quo would seem 
to be less than we should do.
    Ms. Patterson. Mr. Issa, let me say, we entirely agree with 
you about the status quo. This is, frankly, unsustainable. And 
since you were there a year ago, the security situation has 
deteriorated. So, a mandate that needs modernization I think is 
fair to say and a force configuration that needs a reassessment 
to minimize risk, if nothing else. As you know, security 
cooperation between the Israelis and the Egyptians, 
particularly in the Sinai, has never been better.
    Mr. Issa. Yes, we got to witness that. Madam Chair, that 
was the good part of that visit, that the relationship between 
the current Government of Egypt and the current Government of 
Israel is one with common enemies of both the ISIS in the Sinai 
and, of course, Hamas, both of which are know terrorist 
organizations.
    I would close by saying I am equally concerned that the 
Muslim Brotherhood is a political organization with a strong 
bent against the type of freedom that America stands for. And 
if we cannot determine them to be a terrorist organization in 
this body, we certainly have to recognize that they showed 
their true colors during their short time heading Egyptian 
Government. And to the Coptic community and others that people 
on the dais talked about, I think it goes without saying that 
America must take a stand against the activities of the Muslim 
Brotherhood, both as a political organization and as what I 
believe to be a terrorist wing.
    And so, Madam Chair, thank you so much for the indulgence.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa.
    They are a terrorist group. It is ``The Emperor has no 
clothes,'' but if we don't want to see it, it doesn't mean that 
he is, nonetheless, naked.
    And I wanted to ask just one question. Even though Mr. 
Deutch is not here, he has allowed me to do this, so I am not 
speaking out of school.
    All of us in our subcommittee, we are very interested in 
keeping the Iraqi Jewish Archives operating here in the United 
States because many people want to see these historical 
artifacts, and it would find a good home here. We understand 
that perhaps they will eventually go back to Iraq. But have any 
of the 3,500 items, do you know if they have been returned to 
Iraq and, if so, how many, if you could let us know? And have 
we been able to secure the Iraqi Jewish Archives going to other 
museums, other exhibition sites?
    I had talked to Brett McGurk and he assured me that State 
was working with NARA to identify venues where the archives 
could go. And we are willing to work with the State Department 
to see how we can be of help to making sure that these very 
important artifacts of the Iraqi Jewish Archives stay safe and 
in a place where people can see them.
    They were there in my District in Miami Beach, the FIU 
Jewish Museum. And what a great turnout. So, people are 
interested. They want to see them and this is a great place for 
them here in the United States where people can admire them. 
Maybe in Iraq they are not as appreciated. We are willing to 
have it go back, but once they do the whole tour. I want to be 
a roadie for that tour.
    Ms. Patterson. Thank you, Madam Chair. I will get back to 
you on that. I think that that is right; they were on a trip 
around the United States to suitable museums. And at some point 
they would go back to Iraq under proper security and 
appreciation for their historic value. But let me get back to 
you on exactly where they are now.
    Ms. Ros-Lehtinen. I would love that. Thank you very much.
    With that, our subcommittee is adjourned.
    [Whereupon, at 1:02 p.m., the subcommittee was adjourned.]

                              

                                  

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
